No. 20-891
IN THE

'uprein (guild of the littitth *tees
AMERICAN AXLE & MANUFACTURING, INC.
Petitioner,
v.
NEAPCO HOLDINGS LLC, et al.,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE FEDERAL CIRCUIT
BRIEF OF UNITED STATES SENATOR THOM
TILLIS, HONORABLE PAUL R. MICHEL, AND
HONORABLE DAVID J. KAPPOS, AS AMICI CURIAE
IN SUPPORT OF PETITION BY AMERICAN AXLE
& MANUFACTURING, INC. FOR A WRIT OF
CERTIORARI DIRECTED TO THE U.S. COURT OF
APPEALS FOR THE FEDERAL CIRCUIT
ROBERT J. RANDO
Counsel of Record
CHARLES E. MILLER
KELLY L. MORRON
ASSOCIATION OF AMICUS COUNSEL
4940 Merrick Road, Suite 350
Massapequa Park, New York 11762
(516) 799-9800
rrando@amicuscounsel.org
March 1, 2021, corrected March 12, 2021
303064

•

COUNSEL PRESS

(800) 274-3321 • (800) 359-6859

2

TABLE OF CONTENTS
Page
TABLE OF CONTENTS
TABLE OF AUTHORITIES

iv

STATEMENT OF INTEREST OF AMICI CURIAE . .1
SUMMARY OF ARGUMENT

2

ARGUMENT

5

I.

THE DISPARATE AND INCONSISTENT
APPLICATION OF THE COURT'S
JURISPRUDENCE HAS CREATED AN
UNPREDICTABLE AND UNSTABLE
U.S. PATENT SYSTEM CONTRARY
TO THE. ART. I, SEC. 8, CL. 8
CONSTITUTIONAL IMPERATIVE
TO INCENTIVIZE INNOVATION

5

A. Statements From A Wide Array Of
Judges, Legislators, And Policy Experts
Attest To The Confused State Of
The Law

6

Judges of the U.S. Court of
Appeals for the Federal Circuit

6

Members of the U.S. Congress and
Congressional Testimony

9

Table of Contents
U.S. Solicitor General
U.S. Chamber of Commerce

Page
10
11

U. S . Patent and Trademark Office . 11
National Security Commission on
Artificial Intelligence

13

II. SECTION 101 UNCERTAINTY IS
IMPACTING INCENTIVES TO
INNOVATE AND INVEST IN CRITICAL
TECHNOLOGIES INCLUDING
HEALTHCARE, MEDICAL
DIAGNOSTICS AND TREATMENTS,
QUANTUM COMPUTING, ARTIFICIAL
INTELLIGENCE AND MACHINE
LEARNING, AND BIOTECHNOLOGY

14

Rulings That Wrongly Curtail Patent
Eligibility Destroy Innovator and
Investor Confidence In The U.S. Patent
System's Ability To Promote Innovation
And U.S. Technological Leadership

14

Preserving America's Competitiveness
In The "Useful Arts" Requires
Clear Direction That Preserves
Patent Eligibility For ProtectionWorthy Inventions

16

222

Table of Contents
Page
The Stability And Vitality Of
U.S. Patent Law Depends On
The Reasonable, Consistent, And
Settled Judicial Application Of
Its Statutory Framework

17

The Proliferation Of Inconsistent
And Deeply Divided Holdings
Regarding Section 101 Eligibility
Starkly Reflect Courts' Unsuccessful
Struggles With The Alice/Mayo
Test In Real Life Controversies

19

Respectfully, This Court Should
Ameliorate The Chaos Which, If
Allowed To Continue Longer, Will
Further Undermine The Constitutional
Underpinnings Of The Patent
Law, "To Promote The Progress
Of ... [The] Useful Arts"

22

CONCLUSION

24

iv
TABLE OF CITED AUTHORITIES
Page
Cases
Aatrix Software, Inc. v.
Green Shades Software, Inc.,
882 F.3d 1121, petition for reh'g en banc denied,
890 F.3d 1354 (Fed. Cir. 2018)
20, 22
Alice Corp. Pty. Ltd. v. CLS Bank Int'l,
573 U.S. 208 (2014)

passim

American Axle v. Neapco Holdings LLC,
939 F.3d 1355 amended in 967 F.3d 1285
(2019), petition for reh'g en banc denied,
966 F.3d 1347 (Fed. Cir. 2020)
3, 21, 22, 23
Ariosa Diagnostics, Inc. v. Sequenom, Inc.,
788 F.3d 1371, petition for reh'g en banc
denied, 809 F.3d 1282 (Fed. Cir. 2015)

6, 19

Athena Diagnostics, Inc. v.
Mayo Collaborative Servs.,
915 F.3d 743, petition for reh'g en banc denied,
927 F.3d 1333 (Fed. Cir. 2019)
7, 8, 21, 22
Berkheimer v. HP Inc.,
881 F.3d 1360, petition for reh'g en banc
denied, 890 F.3d 1369 (Fed. Cir. 2018) . . 20, 22, 24
Bilski v. Kappos,
561 U.S. 593 (2010)

16

Cited Authorities
Page
cxLoyalty, Inc. v. Maritz Holdings, Inc.,
986 F.3d 1367 (Fed. Cir. 2021)

12

Interval Licensing LLC v. AOL, Inc.,
896 F.3d 1335 (Fed. Cir. 2018)

6, 7

Mayo Collab. Servs. v. Prometheus Labs., Inc.,
566 U.S. 66 (2012)
passim
O'Reilly v. Morse,
56 U.S. 62 (1854)

17

Statutes and Other Authorities
Art. I, § 8, cl. 8 of the U.S. Constitution

1, 5, 24

35 U.S.C. § 101

passim

2019 Revised Patent Subject Matter Eligibility
Guidance, 84 Fed. Reg. 50 (Jan. 7, 2019)

12

Cardozo Law Review, Forthcoming, SMU
Dedman School of Law Legal Studies
Research Paper No. 414

4

Draft Final Report of the National Security
Commission on Artificial Intelligence
(expected publication in final form
on March 1, 2021)
13, 14
Letter of Hon. Thom Tillis to President Joseph R.
Biden, February 16, 2021
16, 17

vi
Cited Authorities
Page
Mark F. Schultz, The Importance of an Effective and
Reliable Patent System to Investment in Critical
Technologies, ALLIANCE OF U.S. STARTUPS
AND INVENTORS FOR JOBS (July 2020)

4

Rando, Robert J., America's Need For Strong,
Stable and Sound Intellectual Property
Protection and Policies: Why It Really
Matters, The Federal Lawyer, June 2016
5, 25
Taylor, David 0., Patent Eligibility and
Investment (February 24, 2019)
The Federalist No. 43 (James Madison)

4
5, 25

The State Of Patent Eligibility In America:
Hearing Before the United States Senate
Subcomm. on Intellectual Property, Comm. on
the Judiciary, 116th Cong. (2019) (June 4, 2019
Hearing Transcript of Oral Testimony of Judge
Paul R. Michel (Ret.) United States Court of
9, 17
Appeals for the Federal Circuit)
The State Of Patent Eligibility In America:
Hearing Before the United States Senate
Subcomm. on Intellectual Property,
Comm. on the Judiciary, 116th Cong. (2019)
(June 4, 2019 Hearing Transcript of Oral
Testimony of Honorable David Kappos,
10, 11, 16, 17
Former Director of the USPTO)

1
STATEMENT OF INTEREST OF AMICI CURIAE
Amicus Curiae Hon. Thom Tillis is a U.S. Senator
and the ranking member of the Senate Committee on the
Judiciary, Subcommittee on Intellectual Property.
Amicus Curiae Hon. David J. Kappos is a former
Director of the U.S. Patent and Trademark Office
(hereafter "USPTO").
Amicus Curiae Hon. Paul R. Michel is a former Chief
Judge of the U.S. Court of Appeals for the Federal Circuit.
For many years, the amici have served the American
people, each in his respective capacity as a member of the
legislative, executive (administrative), and judicial branch
of the federal government. In faithfully carrying out their
duties and fulfilling their obligations as public servants,
they have occupied positions within the government that
have been directly relevant to and impactful upon, one
of this nation's vitally important roles as prescribed by
the founding fathers under Art. I, Sec. 8, cl. 8 of the U.
S. Constitution, namely, the patent system. The amici's
interest in the present controversy lies primarily in the
important ramifications of the instant case from the
legislative, administrative policy, and judicial perspective.
Amici therefore respectfully urge this Court to be
mindful of these tripartite government perspectives in
considering this brief in support of granting American
Axle Manufacturing, Inc.'s petition for certiorari.1,2
No party or its counsel authored this brief in whole or in
part; and no party or its counsel nor any persons other than amici
or their counsel have contributed or will contribute money intended
to fund the preparation or submission of this brief. Sup.Ct.R.37.6.
Counsel for the parties were provided timely notice of,
and have consented to, the filing of this brief. Sup.Ct.R. 37.2(a).

2
SUMMARY OF ARGUMENT
In 35 U.S.C. § 101 ("Section 101") the exclusive
statutory categories of patent-eligible, inventive (new
and useful) subject matter are set forth in the specific
statutory text, namely, processes (methods), machines,
(articles of) manufacture, compositions of matter, and
improvements thereof. These categories are constrained
by three judicially created exceptions that disqualify
an invention from being eligible for the granting of a
patent thereon: "laws of nature", "natural products and
phenomena", and "abstract ideas."
These exceptions to patent eligibility have long been
recognized as boundary conditions that limit the breadth
of U.S. patent law. But there are significant disagreements
among jurists that have resulted in harmful errors of law
regarding the contours of threshold testing of claimed
inventions under Section 101 against those exceptions, one
of which in particular, "abstract ideas," is undefined. With
respect to Section 101 and its antecedents, this Court's
guidance has been vital to promoting its interpretation.
In 2012 and 2014, in Mayo Collab. Servs. v. Prometheus
Labs., Inc., 566 U.S. 66 (2012) and Alice Corp. Pty. Ltd. v.
CLS Bank Int'l, 573 U.S. 208 (2014), this Court set forth
a framework for resolution of Section 101 issues.
However, the test (collectively, "Alice/Mayo"),
intended to filter out inventions deemed not eligible for
patenting, has created a chaotic state of affairs that,
from the standpoint of patent policy, threatens serious
negative jurisprudential and real-world consequences to
America's technological leadership. The undue confusion
and uncertainty in outcome-predictability in patent

3
cases has become so ubiquitous as to render the U.S.
patent system unstable and unreliable at its core across
a spectrum of industries including those upon which the
United States depends for the good health and well-being
of the citizenry and its national security. The confusion
is clearly manifested in the present case by the Federal
Circuit's deeply divided denial of American Axle's petition
for en banc re-hearing of the divided panel decision
invalidating American Axle's patent claims.
Amici herein take no position in this case on the
merits of American Axle's invention. Rather, we believe
that patent policy and the public interest require us to
alert this Court to the harm being done to the patent
system and America's innovation economy. American
Axle is just one example of the judicial confusion causing
consternation among the stakeholders throughout the
innovation economy since Alice/Mayo was enunciated.
The inconsistent application of Alice/Mayo is creating
an unpredictable and unstable U.S. patent system. Since
Mayo and Alice imposed a framework, Alice/Mayo has
been applied differently and questions of its extent,
scope, and rigidity have been common, and are at issue in
American Axle. Questions about whether the additional
information required by Alice/Mayo is a question of law
or fact have also come to the forefront.
The "real world" adverse consequences of Section
101 uncertainty impact the incentive to innovate and to
invest in new technology frontiers including life-saving
treatments and diagnostics, artificial intelligence, and
quantum computing.

4
There is clear empirical evidence demonstrating the
devastating effect Section 101 uncertainty has on the U.S.
patent system with respect to the incentive to innovate
and the willingness to invest in advancing the cutting
edge technologies and science necessary for the U.S. to
compete and lead in the twenty-first century.3
Patent applications for innovations, routinely denied
issuance in the United States on Section 101 grounds are
granted under the patent regimes in China and Europe.
Failure to address and clarify Section 101 patent
eligibility threatens America's ability to maintain its
leadership role in innovation, defense, and economic
superiority on the global stage.

3. See, e.g., Mark F. Schultz, The Importance of an Effective
and Reliable Patent System to Investment in Critical Technologies,
ALLIANCE OF U.S. STARTUPS AND INVENTORS FOR JOBS
(July 2020), at pp. 1-8, available at https://staticl.squarespace.com/
static/5746149f86db43995675b6bb/t/5f2829980ddf0c536e713
2a4/1596467617939/USIJ+Full+Report_Final_2020.pdf (detailed
study and statistical data analysis providing extensive evidence
demonstrating the detrimental impact on the incentive to innovate,
and the willingness to invest in "breakthrough technologies
that change the world," due to Section 101 uncertainty); Taylor,
David 0., Patent Eligibility and Investment (February 24, 2019).
Cardozo Law Review, Forthcoming, SMU Dedman School of
Law Legal Studies Research Paper No. 414, available at SSRN:
https://ssrn.com/abstract=3340937 or http://dx.doi.org/10.2139/
ssrn.3340937 (same).

5
ARGUMENT
I. THE DISPARATE AND INCONSISTENT
APPLICATION OF THE COURT'S
JURISPRUDENCE HAS CREATED AN
UNPREDICTABLE AND UNSTABLE U.S.
PATENT SYSTEM CONTRARY TO THE ART. I,
SEC. 8, CL. 8 CONSTITUTIONAL IMPERATIVE
TO INCENTIVIZE INNOVATION
The need for strong protection of intellectual
property rights is greater now than it was at the
dawn of our republic. Our Forefathers and the
Framers of the U.S. Constitution recognized
the need to secure those rights in Article 1,
Section 8, Clause 8. James Madison provides
insight for its significance in the Federalist
Papers No. 43. ... The clause recognizes the
need for: uniformity of the protection of IP
rights, securing those rights for the individual
rather than the state; and incentivizing
innovation and creative aspirations.4
But in stark contrast to the Founders' intent,
misinterpretation of Section 101 of our patent laws
has created an unintelligible hash. The instability and
uncertainty in Section 101 patent eligibility undermines
the very foundation of the patent system as originally
constructed by the Constitution's framers. Uniformity
4. Rando, Robert J., America's Need For Strong, Stable
and Sound Intellectual Property Protection and Policies: Why It
Really Matters, The Federal Lawyer, June 2016, at 12. Available
at: http://www. randolawfirm.com/uploads/3/4/2/1/3421962/
ip_insight.pdf. ("Rando Fed. Lawyer Article")

6
in securing patent rights to individuals to incentivize
innovation was and is the fundamental purpose of the
provision. Granting certiorari in this case will enable the
Court to resolve our current Section 101 confusion and
provide the clarity necessary to restore that fundamental
purpose.
A. Statements From A Wide Array Of Judges,
Legislators, And Policy Experts Attest To The
Confused State Of The Law
Following is a sample of well-informed and
knowledgeable individuals across the federal government,
including federal agencies and related entities, recognizing
the consequences of the current disarray of 35 U.S.C. §
101:
1.

Judges of the U.S. Court of Appeals for the
Federal Circuit

The Honorable Richard Linn, in Ariosa Diagnostics,
Inc. v. Sequenom, Inc., 788 F.3d 1371, petition for reh'g
en banc denied, 809 F.3d 1282 (Fed. Cir. 2015), opined:
But for the sweeping language in the Supreme
Court's Mayo opinion, I see no reason, in policy
or statute, why this breakthrough invention
should be deemed patent ineligible.
788 F.3d at 1381 (Linn, J., concurring).
The Honorable S. Jay Plager, in Interval Licensing
LLC v. AOL, Inc., 896 F.3d 1335 (Fed. Cir. 2018), stated:

7
Today we are called upon to decide the fate of
some inventor's efforts, whether for good or ill,
on the basis of criteria that provide no insight
into whether the invention is good or ill. Given
the current state of the law regarding what
inventions are patent eligible, and in light of
our governing precedents, I concur in the
carefully reasoned opinion by my colleagues
in the majority, even though the state of the
law is such as to give little confidence that the
outcome is necessarily correct. The law, . . .
renders it near impossible to know with any
certainty whether the invention is or is not
patent eligible. Accordingly, I also respectfully'
dissent from our court's continued application
of this incoherent body of doctrine.
896 F.3d at 1348 (Plager, J., concurring-in-part and
dissenting-in-part).
The Honorable Alan D. Lourie, inAthena Diagnostics,
Inc. v. Mayo Collaborative Servs., 915 F.3d 743, petition
for reh'g en Banc denied, 927 F.3d 1333 (Fed. Cir. 2019),
declared:
If I could write on a clean slate, I would write
as an exception to patent eligibility, as respects
natural laws, only claims directed to the natural
law itself, e.g., E=mc2, F=ma, Boyle's Law,
Maxwell's Equations, etc. I would not exclude
uses or detection of natural laws. The laws of
anticipation, obviousness, indefiniteness, and
written description provide other filters to
determine what is patentable. But we do not

8
write here on a clean slate; we are bound by
Supreme Court precedent. . . . Accordingly,
as long' as the Court's precedent stands, the
only possible solution lies in the pens of claim
drafters or legislators. We are neither.
927 F.3d at 1335-36 (Lourie, J., concurring).
The Honorable Todd M. Hughes, in Athena, observed:
The multiple concurring and dissenting opinions
regarding the denial of en bane rehearing in
this case are illustrative of how fraught the
issue of § 101 eligibility, especially as applied
to medical diagnostics patents, is. .. .
I, for one, would welcome further explication of
eligibility standards in the area of diagnostics
patents. Such standards could permit patenting
of essential life-saving inventions based on
natural laws while providing a reasonable
and measured way to differentiate between
overly broad patents claiming natural laws
and truly worthy specific applications. Such
an explication might come from the Supreme
Court. Or it might come from Congress, with
its distinctive role in making the factual and
policy determinations relevant to setting the
proper balance of innovation incentives under
patent law.
927 F.3d at 1337 (Hughes, J., concurring).

9
The Honorable Paul R. Michel (ret.), in _Congressional
Testimony (2019), stated:
It is important for me, as a retired judge, to
acknowledge that the courts alone created this
problem. In my view, recent cases are unclear,
inconsistent with one another and confusing. I
myself cannot reconcile the cases. That applies
equally to Supreme Court and Federal Circuit
cases. Nor can I predict outcomes in individual
cases with any confidence since the law keeps
changing year after year. If I, as a judge with
22 years of experience deciding patent cases
on the Federal Circuit's bench, cannot predict
outcomes based on case law, how can we expect
patent examiners, trial judges, inventors and
investors to do so?
The State Of Patent Eligibility In America: Hearing
Before the United States Senate Subcomm. on Intellectual
Property, Comm. on the Judiciary, 116th Cong. (2019)
(hereafter "I.P. Subcomm., 2019 Patent Eligibility Hr'g")
(June 4, 2019 Hearing Transcript of Oral Testimony
of Judge Paul R. Michel (Ret.) United States Court
of Appeals for the Federal Circuit (hereafter "Michel
Testimony, Hr'g Tr."), at Hr'g Tr. p. 352).
2. Members of the U.S. Congress and
Congressional Testimony
"Why would anyone in their right mind risk millions
if not billions of dollars to develop a product when they
have no idea if they're eligible for protection? From a
business perspective, it simply isn't worth the risk for
many endeavors." — Senator Thom Tillis.

10
"Today, U.S. patent law discourages innovation in some
of the most critical areas of technology, including artificial
intelligence, medical diagnostics, and personalized
medicine." — Senator Chris Coons.
"Upgrading the patent eligibility test is critical if we
want American innovation to continue to lead worldwide."
— Representative Doug Collins.
"In my home state of Ohio, leaders in the fields of
biologics research and diagnostics will deliver the cures
of tomorrow. This is only possible if we can protect those
innovations with the patent protection that rewards the
risks and investment necessary to discover the next great
idea." — Representative Steve Stivers.
"Our current patent eligibility law truly is a mess.
The Supreme Court, Federal Circuit, district courts, and
USPTO are all spinning their wheels on decisions that
are irreconcilable, incoherent, and against our national
interest. . . . [U]nder current U.S. law governing patent
eligibility, it is easier to secure patent protection for
critical life sciences and information technology inventions
in the People's Republic of China and in Europe, than in
the U.S." — Former USPTO Director David Kappos.
3.

U.S. Solicitor General

"The Court's recent Section 101 decisions have fostered
substantial uncertainty." — U.S. Solicitor General, Noel
J. Francisco (2019).

11
U.S. Chamber of Commerce
"There continues to be considerable uncertainty
for innovators and the legal community, as well as an
overly cautious and restrictive approach to determining
eligibility for patentable subject matter in areas such as
biotech, business methods, and computer-implemented
inventions. This seriously undermines the long-standing
world-class innovation environment and threatens the
nation's global competitiveness." — U.S. Chamber of
Commerce (2020).
U. S . Patent and Trademark Office
Honorable David Kappos, Former Director of the
USPTO, in Congressional Testimony (2019), stated:
Our current patent eligibility law truly is a
mess. The Supreme Court, Federal Circuit,
district courts, and USPTO are all spinning
their wheels on decisions that are irreconcilable,
incoherent, and against our national interest. .
. . [U]nder current U.S. law governing patent
eligibility, it is easier to secure patent protection
for critical life sciences and information
technology inventions in the People's Republic
of China and in Europe, than in the U.S. I.P.
Subcomm., 2019 Patent Eligibility Hr'g (June
4, 2019 Hearing Transcript of Oral Testimony
of Honorable David Kappos, Former Director
of the USPTO (hereafter "Kappos Testimony,
Hr'g Tr."), at Hr'g Tr. pp. 366-367).

12
The USPTO, in a sensible effort to guide the work of
its 8000 patent examiners in light of the present confusion
in the courts, issued a series of administrative patent
eligibility guidelines (PEG) for applying Section 101 in
the examination of patent applications. The most recent
set of guidelines begins by stating that "all USPTO
personnel are expected to follow the [PEG]." The PEG
has been disavowed by the Federal Circuit, leaving the
agency with having to grant thousands of patents with
claims to subject matter likely to be adjudged inconsistent
with judicial case law, contrary to the Federal Circuit's
interpretation of this Court's holdings. As recently as
February 8, 2021, a Federal Circuit panel, in cxLoyalty,
Inc. v. Maritz Holdings, Inc., 986 F.3d 1367 (Fed. Cir.
2021), denigrated the USPTO guidelines. For example,
the court stated:
Throughout its Final Written Decision [on
cxLoyalty's petition for post-patent-grant
review under the America Invents Act of
Maritz Holdings' business method patent], the
[PTAB] repeatedly referred to the [USPTO's]
2019 Revised Patent Subject Matter Eligibility
Guidance, 84 Fed. Reg. 50 (Jan. 7, 2019). We
note that this guidance "is not, itself, the law
of patent eligibility, does not carry the force of
law, and is not binding on our patent eligibility
analysis" (internal citation omitted). And to the
extent the guidance "contradicts or does not
fully accord with our caselaw, it is our caselaw,
and the Supreme Court precedent it is based
upon, that must control." (same).
cxLoyalty, Inc., 986 F.3d n.1.

13
It appears the USPTO itself, the agency tasked with
examining patent applications and reviewing claims in
issued patents, is, despite its own guidelines, deemed
unqualified to determine what is or is not patent eligible
under Section 101. If that is true, then the question
remains: How can tribunals, and innovators and
businesses allocating scarce funds to develop products and
services from innovations, do so under this Court's almost
10-year-old Alice/Mayo test without further intervention
by this Court?
6.

National Security Commission on Artificial
Intelligence

In a Draft Final Report of the National Security
Commission on Artificial Intelligence (expected publication
in final form on March 1, 2021) ("Dft. Fin. Rpt. NSCAI")5,
the Commission identifies "legal uncertainties created
by current U.S. patent eligibility and patentability
doctrine" as contributing to the United States failure to
"Necognize the importance of IP in securing its own
national security, economic interests, and technology
competitiveness." Id. at p. 95 & n. 317 (emphasis added).
While at the same time, "China is both leveraging
and exploiting intellectual property (IP) policies as a
critical tool within its national strategies for emerging
technologies." Id. at p. 95.
The Commission finds further that "[C]hina is
poised to 'fill the void' left by weakened U.S. IP
protections, particularly for patents, as the U.S. has lost its
5. The Dft. Fin. Rpt. NSCAI is available at: https://www.
nscai.gov/wp-content/uploads/2021/01/NSCAI-Draft-FinalReport-1.19.21.pdf

14
`comparative advantage in securing stable and effective
property rights in new technological innovation.'" Id. at
p. 95 & nn. 319 & 320 (emphasis added).
The Commission also found that the U.S. courts
have "severely restricted" U.S. patent law protection on
"computer-implemented and biotech-related inventions"
and that "[c]ritical AI and biotech related inventions have
been denied protection" over the past ten years. Id. at p.
95 & nn. 321 & 322. "Critically, China is now frequently
identified as the current leader in domestic [U.S.] patent
application filings for AI inventions." Id. at p. 96 & n. 327.
The Commission concluded that "[c]urrently, the U.S.
government does not efficiently utilize IP policy as a
tool to support national strategies for national security,
economic interests, and technology competitiveness in
AI and emerging technologies." Id. at p. 98 (emphasis
added).
II. SECTION 101 UNCERTAINTY IS IMPACTING
INCENTIVES TO INNOVATE AND INVEST
IN CRITICAL TECHNOLOGIES INCLUDING
HEALTHCARE, MEDICAL DIAGNOSTICS
AND TREATMENTS, QUANTUM COMPUTING,
ARTIFICIAL INTELLIGENCE AND MACHINE
LEARNING, AND BIOTECHNOLOGY
A. Rulings That Wrongly Curtail Patent Eligibility
Destroy Innovator and Investor Confidence In
The U.S. Patent System's Ability To Promote
Innovation And U.S. Technological Leadership
Due to Section 101's constriction of patent-eligible
subject matter, our key economic competitor — China — as

15
well as Europe, are, and are perceived by entrepreneurs
and investors as being more hospitable and reliable
concerning patent eligibility and hence more stable in
predictability of outcomes of patent enforcement and
licensing. These other major patent systems foster a
sense among innovators that their technologies can be
better protected by foreign patents than by U.S. patents.
The inevitable effect of this perception is to encourage
increased investment of risk capital in foreign locales to
the detriment of innovation and its benefits to markets
and employment in America.
When the worth of U.S. patents is viewed with
skepticism by developers, implementers, licensors, and
licensees due to the uncertainty of patents as industrial
property, their attractiveness as assets and vehicles for
technology transfer in the U.S. is adversely impacted.
This disincentivizes U.S. business investment across
the board — established, new, and developing — such as
information technology including artificial intelligence,
software generally, medical devices, medical diagnostics,
therapeutics, and immunology, all of which play important
roles in jobs growth, economic leadership, innovation
leadership, healthcare outcomes, military superiority,
and safeguarding the United States against national
security vulnerabilities writ large. All of these concerns
are broadly crushing to America's technological edge,
calling for review of the case law that has led to our present
predicament.

16
B. Preserving America's Competitiveness In The
"Useful Arts" Requires Clear Direction That
Preserves Patent Eligibility For ProtectionWorthy Inventions.
For more than 100 years, before and after the 1952
Patent Act, and until the confusion created by the Mayo
and Alice decisions, this Court has provided vital, stable
guidance to promote the "progress of useful arts," in
the words of our Constitution. In the late 1900s and the
first decade of the twenty-first century, the proliferation
of new technologies and an increasing number of patent
applications and patents brought an increased focus on
patent eligibility. In the process, the U.S. court system
has grappled with "critical and emerging technologies"
such as "precision medicine, quantum computing, artificial
intelligence, 5G, and the internet of things." Letter of Hon.
Thom Tillis to President Joseph R. Biden, February 16,
2021, at p. 2 (hereafter, "Tillis Letter"); see also Kappos
Testimony, Hr'g Tr. at pp. 367-368. This Court's Alice/
Mayo test has unfortunately proven to be an unsettling
facet of that grappling.
As this Court and other tribunals have observed,
especially with respect to patents and patent law, "clarity
is essential to promote progress." Bilski v. Kappos, 561
U.S. 593, 655 (2010) (Stevens, J., concurring) (internal
citation omitted).6 As articulated in the Tillis Letter, this
country needs "clear, predictable, and enforceable" patent
rights. Id. at p. 1.

6. Also 561 U.S. at 613 (Stevens, J., concurring) ("In the area
of patents, it is especially important that the law remain stable
and clear").

17
Amici's concern is that Americans creating
technological advances who must follow this Court's
directives regarding patent eligibility are unable to do so
because of the current confusion over the application of
AlicelMayo.7 This is apparent at the USPTO (see Kappos
Testimony, Hr'g Tr. at pp. 368-369) and district court
levels (id.), tribunals of first instance, but particularly
worrisome because there is also rampant confusion at the
Federal Circuit. As Senator Tillis explained, Americans
deserve a patent system that provides reliable incentives
for innovators and inventors of America's "cutting edge
technologies, therapeutics, and treatments that literally
change the world for the better and save countless millions
of lives." Tillis Letter at p. 1.
In short, in the absence of action by this Court
providing much-needed guidance, our nation's most vital
emerging technologies face death. See Tillis Letter.
C. The Stability And Vitality Of U.S. Patent Law
Depends On The Reasonable, Consistent, And
Settled Judicial Application Of Its Statutory
Framework
Long before Mayo and Alice, in 1854, the Court laid
down the principles underlying patent eligibility (as a
prerequisite to patentability) in O'Reilly v. Morse, 56
U.S. 62 (1854) ("O'Reilly"), which excluded from eligibility
"laws of nature." In the following 150 years, Section
101 (and its predecessors), with rulings of this Court,
7. "[T]he uncertainty surrounding the law of eligibility is
the number one problem in our patent system today." Michel
Testimony, Hr'g Tr. at p. 17.

18
operated hand in hand to provide stable foundational
underpinnings for America's patent system. The USPTO
(including examiners, tribunals, "stakeholder" applicants,
and patent preparers), district courts, courts of appeals,
and most importantly their stakeholders, have likewise
relied on this Court to guide them in America's innovators
maintaining clear and encompassing rules governing
patent eligibility.
Concerns about proliferation of unworthy patents and
reexamination of standards of eligibility led this Court to
provide guidance in Alice and Mayo. At the same time,
there was an increased focus on patent eligibility in new
technologies, and patent claims at the intersection of
several technologies implicating natural laws. In an effort
to bring order to the process, this Court, in Mayo and
Alice, established an analytical framework for assessing
subject matter eligibility under Section 101.
But the lower courts and other tribunals have found
Alice/Mayo impossible to apply consistently and reliably
when determining patent eligibility of inventions touching
on laws of nature, natural phenomena, and abstract ideas,
and this Court has not taken up the issue since to continue
its role in stabilizing the application of Section 101.
The confusion and unpredictability in applying Alice/
Mayo is having widespread commercial ramifications at
all levels: for innovators, those who fund innovators, those
who turn innovations into products and services creating
jobs and opportunity for Americans, and patients and
consumers who benefit from those products and services,
all to the great detriment of commerce and its motive
force; innovation and competition.

19
D. The Proliferation Of Inconsistent And Deeply
Divided Holdings Regarding Section 101
Eligibility Starkly Reflect Courts' Unsuccessful
Struggles With The Alice/Mayo Test In Real
Life Controversies
Between 1982 and 2012, Federal Circuit opinions (not
cases) citing Section 101 averaged about 4-5 per year.
But from 2011 to the present — after Mayo and Alice
were handed down — that statistic skyrocketed to about
24 per year. At the same time, the proportion of Section
101 cases including separate opinions — concurrences and
dissents — has also proliferated. The number of district
court opinions devoted to Section 101 analysis — with
the increasing likelihood of reversal on appeal — has
mushroomed. The number of patent applications subject
to review on appeal under Section 101 has also climbed
dramatically. A sampling of decisions illustrates the
confusion at the root of these statistics:
Ariosa Diagnostics, Inc. v. Sequenom, Inc., 788
F.3d 1371, petition for reh'g en banc denied, 809 F.3d
1282 (Fed. Cir. 2015), provides an apt example of how
chaotic the situation has become. In Ariosa the district
court held under Alice/Mayo that a diagnostic method
for detecting paternal nucleic acids, which "combined
and utilized man-made tools of biotechnology in a new
way that revolutionized prenatal care" (788 F.3d at
1379) was ineligible subject matter. The Federal Circuit
affirmed. Judge Linn, concurred because the holding was
compelled by Mayo and Alice, stating that this Court's
"blanket dismissal of conventional post-solution steps
leaves no room to distinguish ...." 788 F.3d at 1380 (Linn,
J., concurring). In dissent from denial of the petition for

20
rehearing en banc (while several members of the court
concluded that they were bound by Alice/Mayo), Judge
Newman interpreted the caselaw very differently, finding
the Sequenom facts distinguishable. 809 F.3d at 1293.
The claims in Berkheimer v. HP Inc., 881 F.3d 1360,
petition for reh'g en bane denied, 890 F.3d 1369 (Fed.
Cir. 2018), covered a method for digitally processing and
archiving files, where the district judge had ruled against
eligibility on summary judgment. The claims in Aatrix
Software, Inc. v. Green Shades Software, Inc., 882 F.3d
1121, petition for reh'g en bane denied, 890 F.3d 1354 (Fed.
Cir..2018) were for a system and method for designing,
creating, and importing data into a viewable form, where
the district court had ruled the claims ineligible at the
pleadings stage.
On appeal, the cases and opinions raised the issue of
whether the Section 101 issue raises factual questions.
Numerous of the Federal Circuit judges perceived the
holdings to stand for the "unremarkable proposition"
that the second step of the Alice/Mayo test is a question
of fact (890 F.3d at 1370 (Moore, Dyk, O'Malley, Taranto,
and Stoll, J.J., concurring in denial of petition)), or that
intervention by this Court was warranted (890 F.3d at
1374 (Lourie and Newman, J.J., concurring in denial of
petition)). Judge Reyna considered the question to be of
"exceptional importance" and divorces the second step of
Alice/Mayo from the claims. 890 F.3d at 1377 (dissenting
from denial of petition). He viewed this "profound change"
(id.) to the analysis as exacerbating the expanding number
of Section 101 cases addressed before necessary fact
finding on summary judgement and at the USPTO (id.,
n.3). These issues logically implicate and disrupt decisions
at district court pleadings stage under Rule 12.

21
In Athena Diagnostics, Inc. v. Mayo Collaborative
Servs., 915 F.3d 743, petition for reh'g en banc denied, 927
F.3d 1333 (Fed. Cir. 2019), the court held the claims for
a diagnostic technique ineligible under Alice/Mayo. On
petition for rehearing en banc, eight separate opinions
were filed. The four concurring opinions stated that
the authors felt bound to the conclusion by the test and
explicitly requested relief by this Court. 927 F.3d at
1335-52. The four dissents, spanning more than 20 pages,
interpreted the Athena facts to be distinguishable from
Alice which did not compel the instant result, and believed
the test was simply too rigid to be appropriately applied.
927 F.3d at 1352-73. Judge Moore reflected, "Our fervor
for clarity and consistency has resulted in a per se rule
that excludes all diagnostics from eligibility. I do not agree
with my colleagues that Mayo requires that all of these
claims in all of these cases be held ineligible. But that is
where we are." 927 F.3d 1354.
All of the foregoing hash has led to American Axle
v. Neapco Holdings LLC, 939 F.3d 1355 amended in 967
F.3d 1285 (2019), petition for reh'g en banc denied, 966
F.3d 1347 (Fed. Cir. 2020). In American Axle, the court
concluded under Mayo and Alice that since the method
claims (related to dampening vibrations in motor vehicle
drive train shafts) invoked a natural law, Hooke's Law,
and nothing more, they were patent ineligible under Alice/
Mayo. The dissent emphatically disagreed.
On petition for rehearing en banc, three dissenting
opinions asserted that the analysis did not comport with
precedent, the holding had ignored the fact issue, there
was insufficient evidence that there was "nothing more"
than Hooke's Law in the claim, the opinion had developed

22
a new test and/or the decision created a heightened
enablement provision, inter alia. 966 F.3d at 1357-67.
The law on patent eligibility has become plagued
by disparate and conflicting applications of Alice' Mayo,
and as demonstrated above, Federal Circuit opinions
since have identified numerous situations that cannot be
logically resolved, all of which deserve to be addressed.
These concerns are simply crushing American innovation
and technological leadership.
E. Respectfully, This Court Should Ameliorate The
Chaos Which, If Allowed To Continue Longer,
Will Further Undermine The Constitutional
Underpinnings Of The Patent Law, "To
Promote The Progress Of ... [The] Useful Arts"
The Federal Circuit disagreements reflect serious
flaws in the Alice/Mayo test, creating massive disincentive
to innovation when our country needs it most, and
represent an enormous waste of resources. As important
as they are to the individual cases, the judges' internecine
differences of opinion are illustrative of the widespread
confusion caused by Alice/Mayo. Additionally illustrative
are the number of split opinions in the court, not only in the
original panel opinions, but also in the denials of petitions
for rehearing en bane. In addition to American Axle with
three dissenting opinions, Sequenom, Aatrix, Berkheimer,
and Athena, citing Alice and/or Mayo, each had multiple
opinions. This extent of disagreement on one legal issue
reflects fundamental and incompatible differences on the
critical, foundational Alice/Mayo analysis. The current
state of affairs is untenable.

23
A decade has passed since this Court provided its
analysis for Section 101 patent eligibility. It is clear now
that those affected — in other words, all those in America's
sophisticated technology fields, the USPTO, and the courts
— have been unable to apply Alice/Mayo to resolve the
questions that have arisen. This reality is reflected in the
patent applications that have been rejected, the patents
that have been invalidated, the courts of first instance
that have been overturned on hotly disputed appeals,
the many confused decisions of the Federal Circuit
and accompanying array of dissenting and concurring
opinions.
This Court has repeatedly refused to revisit Section
101 jurisprudence. While important innovations go
unprotected, the Court has declined granting petitions
for certiorari in dozens of cases that presented the
opportunity to clarify patent eligibility law. The American
Axle case should not suffer the same fate; it is an ideal
vehicle for this Court to clarify the law.
Judge Newman articulated the problem well in her
dissent in the American Axle petition for rehearing denial:
The court's rulings on patent eligibility have
become so random as to have a serious effect on
the innovation incentive of the patent system in
all fields of technology. The victim is not only the
instant inventor of a now-copied improvement in
driveshafts for automotive vehicles; the victims
are the national interest in an innovative
industrial economy, and the public interest in
the fruits of technological advance.
966 F.3d at 1357 (emphasis added).

24
Amici also agree with Judge Reyna's observation
(in Berkheimer, but which is equally applicable to many
other cases), that the "consequences of this decision are
staggering." 890 F.3d at 1380. Without renewed guidance
from this Court, Alice/Mayo will continue to stifle
American ingenuity.
Congress has held hearings in which dozens of
witnesses have called the current system untenable. It is
time for this Court to step in and advance the analysis.
CONCLUSION
Amici, representing the perspectives of the three
branches of government, submit this brief supporting
the grant of petitioner's writ of certiorari, all with an
abiding passion for balancing the needs of our innovation
economy, all convinced that section 101 is gravely
damaging our country's ability to succeed in the race for
global innovation leadership, and all convinced that the
solution to the dilemma lies with the Court taking up the
American Axle case.
This Court should begin its analysis of Section 101
and its jurisprudence with, and find its guidance in, the
fundamental principle animating the Framers of Article
I, Section 8, Clause 8 of the Constitution, by asking a basic
question: whether the result or consequence of the Court's
enterprise will "promote the progress of the sciences
and useful arts" and, if so, whether it is directed to the
purpose of maintaining the incentive to innovate, will
achieve uniformity in its application and implementation
and will remain in fidelity with securing for the individual
intellectual property rights as unequivocally declared by

25
James Madison in Federalist Papers Number 43, as the
self-evident purpose of the Patent and Copyright Clause.8
For the reasons and authorities set forth above, this
Court should grant certiorari in order to resolve an
ongoing and pervasive issue of exceptional importance to
U.S. patent law and policy, and to all stakeholders in the
U.S. patent system in view of its domestic and international
real-world implications for U.S. leadership in innovation.
In doing so, the Court at the merits stage could clarify
its precedents for the benefit of lower courts and other
tribunals, innovators, and those funding products and
services development, who for years have been seeking
guidance from the Court on how to test inventions for
patent eligibility under Section 101.
Respectfully submitted,
ROBERT J. RANDO
Counsel of Record
CHARLES E. MILLER
KELLY L. MORRON
ASSOCIATION OF AMICUS COUNSEL
4940 Merrick Road, Suite 350
Massapequa Park, New York 11762
(516) 799-9800
rrando@amicuscounsel.org

8. Rando Fed. Lawyer Article at 15.

